                               Closeout of M97010003


    The complainant1 informed the Assistant Inspector General of Oversight of
allegations of misconduct in science, and on January 13, 1997, this inquiry was
opened. The complainant requested and was granted confidential status. The
complainant sent a letter, and supplementary draft manuscripts, alleging, among
other things, that the subject2 had:
   (a) incorporated into her manuscript, ideas and terminology from his
       manuscript;
   (b) cited papers in her manuscript that allegedly did not discuss the results the
       sentence containing the citation alluded to. The complaint said that he read
       the cited papers and they did not define or mention the results attributed to
       them. The complainant interpreted this a s a misrepresentation of the
       research of the (incorrectly) cited authors;
   (c) included on the manuscript authors who were not a t the university, but
       whose address indicated that they were a t the university.
The complainant made other allegations that were not misconduct in science or did
not involve NSF. These other concerns were passed along to the proper people to
address those matters.3
   Allegations (a), (b), and (c) were reviewed for this case and pertained to draft
manuscripts. The complaint's source document, from which the subject allegedly
plagiarized the complainant's ideas, was a draft manuscript. The subject's
document, that allegedly contained the complainant's ideas, was also a draft
manuscript, and was in fact, filled with corrections and changes. Draft manuscripts
are preliminary versions of final manuscripts that may be submitted and published
after the author and his or her co-authors have had a chance to make corrections.
Some draft manuscripts are never submitted or published, making a n allegation of
intellectual theft hard to sustain. It is doubtful that the scientific community
expects authors to adhere to scientific publication standards in their draft
manuscripts as stringently as they are expected to adhere to those standards for
submitted or published manuscripts.
   Because the alleged errors were in a draft manuscript, allegations (b) and (c)
would not be considered misconduct in science. Regarding allegation (b), authors
are expected to properly reference their cited sources, but a n incorrect citation in a
draft manuscript, not submitted for publication, could not be sufficiently serious to
constitute a serious deviation from the accepted practices of the scientific


   1 (Footnote redacted).
     (Footnote redacted).
   3 (Footnote redacted).



                                       Pg. 1of 2
                               Closeout of M97010003

community. When a manuscript is submitted to a journal for review and possible
publication, it is among the responsibilities of the referees and editors of the journal
to point out any references that are irrelevant or to suggest to the author including
more relevant references. At that stage, the author has the opportunity to correct
erroneous references of his or her own volition. Since this corrective feedback
mechanism occurs before publication, the existence of citation errors in a submitted
manuscript would not commonly be perceived by the scientific community to be as
serious as the existence of such errors in a published article. Regarding allegation
(c), the address associated with an author on a paper does not necessarily mean that
the author is employed at the institution whose address is listed. For example, the
address could indicate that the author was temporarily at the institution when the
research discussed in the manuscript was performed. It may also mean that the
author will receive any correspondence sent to that address.
    Allegation (a) was based on a one paragraph explanation of the technical
meaning of a few specific words. The complainant alleged that the subject's
explanation and use of the technical words was a special case of a more general
theory he developed. There is no evidence that the subject took ideas or text from
the complainant's draft document, indeed, most of the terminology is common to the
field in which the subject has published, and the specific technical aspects could
derive from the subject's research in that field. Thus, there was nothing in the
subject's draft document that was unique to the complainant' draft document.
Furthermore, the subject's paragraph discussion, which the complainant alleged
was a special case of his broader, more general theory, in no way infringes on the
publication, usefulness, or intellectual ownership of the complainant's more general
theory.
   This inquiry into allegations of misconduct in science is closed and no further
action will be taken on this case.


cc: Legal, AIG-Oversight, IG




                                       Pg. 2 of 2
    The complainant1 informed the Assistant Inspector General of Oversight of
allegations of misconduct in science, and on January 13, 1997, this inquiry was
opened. The complainant requested and was granted confidential status. The
complainant sent a letter, and supplementary draft manuscripts, alleging, among
other things, that the subject2 had:
    (a) incorporated into her manuscript, ideas and terminology from his
        manuscript;
   (b) cited papers in her manuscript that allegedly did not discuss the results the
       sentence containing the citation alluded to. The complaint said that he read
       the cited papers and they did not define or mention the results attributed to
       them. The complainant interpreted this as a misrepresentation of the
       research of the (incorrectly) cited authors;
   (c) included on the manuscript authors who were not a t the university, but
       whose address indicated that they were a t the university.
The complainant made other allegations that were not misconduct in science or did
not involve NSF. These other concerns were passed along to the proper people to
address those matters.3
   Allegations (a), (b), and (c) were reviewed for this case and pertained to draft
manuscripts. The complaint's source document, from which the subject allegedly
plagiarized the complainant's ideas, was a draft manuscript. The subject's
document, that allegedly contained the complainant's ideas, was also a draft
manuscript, and was in fact, filled with corrections and changes. Draft manuscripts
are preliminary versions of final manuscripts that may be submitted and published
after the author and his or her co-authors have had a chance to make corrections.
Some draft manuscripts are never submitted or published, making an allegation of
intellectual theft hard to sustain. It is doubtful that the scientific community
expects authors to adhere to scientific publication standards in their draft
manuscripts as stringently as they are expected to adhere to those standards for
submitted or published manuscripts.
   Because the alleged errors were in a draft manuscript, allegations (b) and (c)
would not be considered misconduct in science. Regarding allegation (b), authors
are expected to properly reference their cited sources, but an incorrect citation in a
draft manuscript, not submitted for publication, could not be sufficiently serious to
constitute a serious deviation from the accepted practices of the scientific


   1 (Footnote redacted).
   2 (Footnote redacted).
   3 (Footnote redacted).



                                      Pg. 1 of 2
                               Closeout of M97010003

community. When a manuscript is submitted to a journal for review and possible
publication, it is among the responsibilities of the referees and editors of the journal
to point out any references that are irrelevant or to suggest to the author including
more relevant references. At that stage, the author has the opportunity to correct
erroneous references of his or her own volition. Since this corrective feedback
mechanism occurs before publication, the existence of citation errors in a submitted
manuscript would not commonly be perceived by the scientific community to be as
serious as the existence of such errors in a published article. Regarding allegation
(c), the address associated with an author on a paper does not necessarily mean that
the author is employed a t the institution whose address is listed. For example, the
address could indicate that the author was temporarily a t the institution when the
research discussed in the manuscript was performed. It may also mean that the
author will receive any correspondence sent to that address.
    Allegation (a) was based on a one paragraph explanation of the technical
meaning of a few specific words. The complainant alleged that the subject's
explanation and use of the technical words was a special case of a more general
theory he developed. There is no evidence that the subject took ideas or text from
the complainant's draft document, indeed, most of the terminology is common to the
field in which the subject has published, and the specific technical aspects could
derive from the subject's research in that field. Thus, there was nothing in the
subject's draft document that was unique to the complainant' draft document.
Furthermore, the subject's paragraph discussion, which the complainant alleged
was a special case of his broader, more general theory, in no way infringes on the
publication, usefulness, or intellectual ownership of the complainant's more general
theory.
    This inquiry into allegations of misconduct in science is closed and no further
action will be taken on this case.


cc: Legal, AIG-Oversight, IG




                                      Pg. 2 of 2
